<html>
<title> - REVIEW OF H.R. 1011, THE VIRGINIA RIDGE AND VALLEY ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
     REVIEW OF H.R. 1011, THE VIRGINIA RIDGE AND VALLEY ACT OF 2007 

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2007

                               __________

                           Serial No. 110-28


          Printed for the use of the Committee on Agriculture
                       www.agriculture.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

41-051 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania             BOB GOODLATTE, Virginia
    Vice Chairman                        Ranking Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``Randy'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 KEVIN McCARTHY, California
NICK LAMPSON, Texas                  TIM WALBERG, Michigan
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                           Professional Staff

                     Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

            William E. O'Conner, Jr., Minority Staff Director

                                  (ii)

























                            C O N T E N T S

                              ----------                              
                                                                   Page
Peterson, Hon. Collin C., a Representative in Congress from the 
  State of Minnesota, opening statement..........................     1
    Prepared statement...........................................    23
Goodlatte, Hon. Bob, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     2
    Prepared statement...........................................    25
Salazar, Hon. John T., a Representative in Congress from the 
  State of Colorado, prepared statement..........................    27

                               Witnesses

Holtrop, Mr. Joel, Deputy Chief, National Forest System, United 
  States Department of Agriculture, Washington, D.C..............     3
    Prepared statement...........................................    32
Howe, Mr. Paul, Executive Vice President, Virginia Forestry 
  Association, Richmond, Virginia, opening statement.............     9
    Prepared statement...........................................    37
Bruton, Mr. C. Dowd, Senior Regional Wildlife Biologist, National 
  Wild Turkey Federation, Traphill, North Carolina...............    11
    Prepared statement...........................................    39
Muffo, Mr. John A., Virginia Board of Supervisors, Montgomery 
  County, Virginia, Blacksburg, Virginia.........................    12
    Prepared statement...........................................    46
Davenport, Mr. Tom R., Business Manager, Mt. Rogers Outfitters, 
  Damascus, Virginia.............................................    14
    Prepared statement...........................................    48

                           Submitted Material

Pelton, Dr. Michael R., Professor Emeritus, Wildlife Science, 
  Middlebrook, Virginia..........................................    28
West, Dr. David A., Blacksburg, Virginia.........................    30


 HEARING TO REVIEW H.R. 1011, the Virginia Ridge and Valley Act of 2007

                              ----------                              

               THURSDAY, SEPTEMBER 27, 2007
                          House of Representatives,
                                   Committee on Agriculture
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:05 a.m., in Room 
1300 of the Longworth House Office Building, Hon. Collin C. 
Peterson [Chairman of the Committee] presiding.
    Members present: Representatives Peterson, Holden, 
Etheridge, Cuellar, Salazar, Pomeroy, Davis, Goodlatte, 
Conaway, Smith, and Walberg.
    Staff present: Alejandra Gonzalez-Arias, Tony Jackson, John 
Riley, Sharon Rusnak, Lisa Shelton, Kristin Sosanie, Brent 
Blevins, Alise Kowalski, Kevin Kramp, Rita Neznek, and Jamie 
Weyer.

   STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    The Chairman. Good morning, everybody. Thank you for being 
here today. We are here to take a look at the Virginia Ridge 
and Valley Act, which has been introduced by Congressman 
Boucher of Virginia. My good friend and colleague, Bob 
Goodlatte, brought this bill to my attention and requested the 
committee hold a hearing on this issue. These gentlemen 
represent two beautiful districts in rural Virginia with 
significant forest areas, and they are strong advocates for 
these important natural resources. They have been working 
together to address some concerns raised about this bill, and I 
understand they have some common ground. However, some issues 
remain unresolved.
    So this hearing today will allow us to consider all sides 
of the situation. Mr. Goodlatte has raised some valid concerns 
in my opinion about certain parts of the Jefferson National 
Forest that would be designated wilderness areas if this bill 
is passed. The designation of wilderness areas can limit forest 
flexibility and in my part of the country there is still 
controversy about land that was designated as wilderness many, 
many years ago. H.R. 1011 calls for wilderness areas well 
beyond the forest plan, and it is important that we consider 
the specific needs of the land affected by the bill.
    I appreciate Ranking Member Goodlatte and Congressman 
Boucher for their work on this issue. I look forward to the 
testimony of the witnesses joining us here today. And with 
that, I would recognize my good friend and ranking member, Mr. 
Goodlatte, from Virginia.

 STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Thank you, Mr. Chairman, and I very much 
appreciate your holding this hearing on the Virginia Ridge and 
Valley Act, H.R. 1011. I want to welcome all the witnesses that 
we have before us several of which are from my home State of 
Virginia. I also want to commend Congressman Boucher for his 
hard work on this legislation. We have had discussions on this 
legislation for some period of time, and I am certainly 
supportive of many of the objectives of the legislation, but I 
do have some concerns that I want to put on the record here in 
my remarks, and also hear from witnesses who are here, I think, 
representing both sides of the issue.
    H.R. 1011 proposes to create 38,898 acres of wilderness, 
3,575 acres of wilderness study areas and potential wilderness 
areas, and 11,583 acres of National Scenic Areas in the 
Jefferson National Forest in southwest Virginia. While all the 
land included in this proposal is in my colleague, Congressman 
Boucher's district we share the Jefferson National Forest with 
about 108,000 acres of the 723,000 acre forest in my district. 
With over 1.2 million acres of publicly owned forest in my 
district the George Washington and Jefferson National Forests 
are important economic drivers. They serve as a fiber source 
for forest products industry and offer recreation opportunities 
to millions of people each year.
    They are also an important wildlife habitat and serve 
several other important needs for the communities around them 
and for the people of our country. For 12 years the Forest 
Service worked to develop a new forest management plan for the 
Jefferson National Forest in a combined effort with four other 
National Forests. They held over 100 technical meetings, 
received over 3,000 written comments on draft plans, and then 
another 12,000 when the final plan was rolled out. The Forest 
Service eventually accepted the proposal developed by a 
collaborative group of citizens and interest groups as the 15-
year plan for the Jefferson National Forest.
    This plan included a recommendation to designate an 
additional 25,200 acres of wilderness on top of the 57,000 
existing wilderness areas. Unfortunately, the bill before us 
today goes way beyond the recommendations that came out of the 
forest planning process proposing 13,600 more wilderness acres 
than what was recommended in the forest plan and another 14,000 
acres of other set asides that were not included in the forest 
plan. It is disappointing that we are spending federal 
resources to develop locally driven collaborative plans for 
National Forests and Congress then proceeds to ignore these 
recommendations.
    In addition to the process concerns, our witnesses will 
talk about several problems with proposed areas in the bill. My 
colleague, Mr. Boucher, has attempted to address some of these 
problems, but I do not believe all are fully resolved. We have 
a forest health crisis in our nation's public forests. So far 
this year's fire season is the fourth worse fire season on 
record, and we haven't seen the end of it yet. Additionally, 
insects and diseases like the gypsy moth which has invested 
over 73,000 acres of Virginia's forests this year are a serious 
threat. Congress needs to provide more tools to professional 
resource managers in the Forest Service to mitigate these 
problems.
    Instead, the wilderness designation in H.R. 1011 take tools 
away from the Forest Service. For example, the Brush Mountain 
and Brush Mountain East proposed areas, some 8,500 acres, need 
prescribed fire treatments to restore and maintain a unique 
forest ecosystem, Table Mountain Pine. Table Mountain Pine is 
home to the state's rare Northern Pine Snake and several rare 
moths. If these areas are set aside for wilderness it is 
unlikely the Forest Service will be able to effectively manage 
the forest and will have to rely on the chance that fires will 
come through the area every 3 to 9 years as the trees require.
    Recreation conflicts are also a problematic consequence of 
the proposed bill. Since several areas would be closed to 
motorized recreation and mountain biking the bill attempts to 
resolve of these conflicts by mandating another trail for 
mountain biking. However, this creates several safety, 
maintenance, and environmental problems. As we lock up more 
land to certain recreation users, we force other users to 
concentrate their activities in smaller areas. A recent survey 
of visitors to the George Washington and Jefferson National 
Forest found that only 2 percent of visitors visited wilderness 
areas when they came to the forest. This bill would shrink the 
amount of land that is available for a majority of forest 
visitors.
    Additionally, there are private in-holdings and utility 
corridors, and many of the areas will be difficult to manage as 
wilderness due to their size and proximity to roads, private 
lands, and communities. The National Forests are already 
protected as National Forests set aside to provide the public 
with a number of products and services. Permanently locking up 
large areas and taking a hands off approach is not always the 
answer. So, again, thank you, Mr. Chairman, for holding this 
hearing, and I look forward to the testimony of the witnesses 
and continue to work with my colleagues to find a balanced 
approach to what is proposed in H.R. 1011.
    The Chairman. Thank the gentleman, and the other members of 
the committee that have statements, they will be made part of 
the record. We will now proceed to hear from our first witness, 
the Deputy Chief, Mr. Holtrop, of the National Forest System, 
U.S. Department of Agriculture. Welcome to the committee, and 
your full testimony will be made part of the record, and we 
appreciate you limiting your remarks to 5 minutes. Thank you.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
    SYSTEM, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, DC.

    Mr. Holtrop. Mr. Chairman, and members of the Committee, 
thank you for the opportunity to provide the Department's views 
on the Virginia Ridge and Valley Act. We commend the sponsors 
and the Committee for its collaborate approach in how they have 
worked with us in the local communities. The Department 
supports several of the designations included in the bill but 
we object to other designations and to mandatory planning and 
construction requirements. The department would like to work 
with the committee to offer suggestions which we think will 
improve H.R. 1011. During the revision of the Jefferson 
National Forest Land Management Plan the Forest evaluated 
potential wilderness or wilderness study areas that satisfied 
the definition of wilderness found in the Wilderness Act of 
1964.
    The Plan, signed in January of 2004, was developed over an 
11-year period with extensive public involvement. The 
Department supports the bill provisions that would designate 
new wilderness areas and the designation of many of the 
additions to existing wilderness areas that are consistent with 
the Land Management Plan recommendations. The Department does 
not oppose the designation of several other additions though we 
have concerns about their suitability as components of the 
National Wilderness Preservation System. The Department does 
not support the designation as potential wilderness for the 
349-acre portion of the Kimberling Creek area.
    The subsequent designation of wilderness following a fixed 
time period and associated compulsory changes and conditions 
limit our discretion in the allocation of scarce resources. The 
Department does not support wilderness designation for the 
Brush Mountain and Brush Mountain East areas. These areas 
contain fire dependent forest habitat and are largely 
surrounded by private lands. Wildland urban interface exists on 
north and south boundaries. The Department could support the 
designation of the Raccoon Branch area as wilderness if 
agreements are reached that resolve trail maintenance issues, 
and if the requirement for a sustainable trail is amended to 
provide more flexibility for alternative trail locations.
    Many trails in this area are used by both equestrian and 
mountain bikers. Currently, 4 of the 6 miles of the Virginia 
Highlands horse trail in the Raccoon Branch area are open to 
mountain bike use. Wilderness designation would eliminate 
mountain bike use and raise concerns about trail maintenance. 
We would like to work with the Committee to adjust the boundary 
as now proposed in the bill. The adjustment could alleviate 
much of the concern with maintaining the trail for equestrian 
use. The bill would establish Seng Mountain and Bear Creek 
National Scenic Areas. The Department appreciates the action by 
the Natural Resources Committee to amend the bill to allow for 
seasonal motorized use during beer and deer hunting season. 
Last month the President signed Executive Order #13443, 
Facilitation of Hunting Heritage and Wildlife Conservation. 
This Executive Order requires Federal land management agencies 
to manage wildlife and wildlife habitats of public lands in a 
manner that expands and enhances hunting opportunities.
    We would like to work with the Committee on language that 
would allow a low level of habitat management for black bear 
that would be consistent with the Executive Order and 
compatible with the purposes for which the National Scenic 
Areas are being established. The proposed Seng Mountain 
National Scenic Area is within the Mount Rogers National 
Recreation Area. The Department recommends that the overlapping 
designation be clarified and continued motorized use on the 
Barton Gap Trail be allowed. H.R. 1011 would require the 
Secretary to establish a trail plan to develop hiking and 
equestrian trails on lands designated as wilderness by this 
bill.
    The Forest Service already addresses trail management and 
planning standards within the planning process. We consider the 
requirement to develop additional trail plans to be 
unnecessary. This bill would also require the Secretary to 
provide a continuous connection for non-motorized travel 
between State Route 650 and Forest Development Road 4018. The 
bill language specifies the terminus of the connector route and 
limits our ability to locate and construct a trail that will 
meet Forest Service standards for safety and in a manner that 
is environmentally appropriate. We would like to work with the 
Committee on language that would allow us to construct trail 
facilities with adequate consideration for alternatives, 
priorities, and costs. This concludes my statement, and I will 
be happy to answer any questions that you have at this time.
    The Chairman. Thank you for that testimony. I am going to 
yield my time to Mr. Goodlatte at this point.
    Mr. Goodlatte. Thank you, Mr. Chairman. Mr. Holtrop, 
welcome, and thank you for your testimony. It is frustrating to 
me and many of my constituents when we spend federal resources 
and engage citizens in a forest planning process only to have 
the forest plan ignored as H.R. 1011 does. What was the total 
cost for developing the Jefferson forest plan, do you know?
    Mr. Holtrop. We don't track costs so that we are not able 
to give you an explicit answer to that although we do have some 
estimates that the average cost of forest plan revisions across 
the country is about $5 million.
    Mr. Goodlatte. Thank you. And many, many people both in the 
agency and outside the agency are involved in this process?
    Mr. Holtrop. That is correct. I think in your opening 
statement you correctly identified that there were dozens of 
public meetings. We had over 500 people attend those public 
meetings. We had thousands of comments. We had 3,000 people on 
our mailing list as this plan was being developed.
    Mr. Goodlatte. I wonder if you might elaborate on the 
potential wildfire threats if the Brush Mountain and Brush 
Mountain East areas are designated as wilderness. What risk 
would this pose to area communities like Blacksburg, and why is 
prescribed fire so important?
    Mr. Holtrop. I would like to--first of all, I would like to 
express my appreciation to you and others on the Committee for 
recognizing the value of our forest planning process and the 
value of the public input that we receive in that. Brush 
Mountain and Brush Mountain East is one of those areas in which 
through the planning process we identified that a high need in 
that area is prescribed fire mostly for the purposes of 
maintaining a rare Table Mountain Pine ecosystem type, and 
there are large Table Mountain Pine that currently exist in the 
Brush Mountain and Brush Mountain East areas but there are not 
established young Table Mountain Pine in that area, and in 
order to establish the young pine, fire needs to occur because 
it is a tree species that requires fire to open up the cone and 
to open up the seed bed on the forest floor for it to occur.
    So the main concern that we have for fire in the Brush 
Mountain and Brush Mountain East is to provide the opportunity 
for prescribed fire for that rare ecosystem type. A benefit 
that would come from that would be it would reduce fuel build-
up over time as well so that if a fire were to occur in that 
area we would have a better chance of protecting very closely 
aligned communities in residential areas on both sides of this 
long, narrow wilderness designation.
    Mr. Goodlatte. Am I correct that these two areas, Brush 
Mountain and Brush Mountain East, are two separate wilderness 
areas because that is a power line that runs right through the 
middle of this area?
    Mr. Holtrop. That is correct.
    Mr. Goodlatte. Can you elaborate a little bit more on the 
problems that come with the prescription and limitations on 
being able to use prescribed fire in a wilderness area? What 
limitations do you face there as opposed to a different type of 
management designation?
    Mr. Holtrop. Well, first of all, we take wilderness 
designation seriously. It is a high standard, and so our 
responsibility is to manage it to retain its wilderness 
character. There are some limited circumstances in which the 
determination is made that prescribed fire is the best way for 
us to maintain its wilderness character, a management decision 
could be made to ignite a prescribed fire. We could also allow 
for a naturally occurring fire to burn in the area. But without 
some treatment that had occurred in advance and without being 
able of course to control the naturally occurring fire, a 
lightning strike, for instance, the likelihood of it occurring 
at a time where we felt safe in terms of being able to protect 
the communities that would be at risk if such a wildfire 
occurred would be limited.
    The ability for us to have prescribed fire in wilderness is 
there but it is limited again to make sure that we are 
maintaining wilderness character and there would be further 
limitations of course on the use of mechanized equipment while 
carrying out those activities which further restrict the 
ability for us to carry out extensive burns or the period of 
time we would be able to carry out the burns in order to 
continue to do it in a safe manner or to get something under 
control if it got out of control, so that is correct.
    Mr. Goodlatte. Are there plans to develop or intensively 
manage any of the areas that would be designated as wilderness 
under H.R. 1011 but weren't recommended for wilderness in the 
forest plan?
    Mr. Holtrop. There are no plans to intensively manage any 
of those areas. We would, for instance, in Brush Mountain and 
Brush Mountain East continue with our plans to manage through 
prescribed fire and some vegetation treatment the Table 
Mountain Pine type and to reduce hazardous fuel build up. The 
Kimberling Creek potential wilderness area would be managed for 
restoration activities to allow it to restore to a more natural 
state. There would be some of those types of activities, but 
there is nothing that I would characterize as intensive 
management. Basically our Forest Plan direction for those areas 
is also pretty limited management activities largely to enhance 
ecosystems and enhance visitor use.
    Mr. Goodlattee. So if they were not included as a 
wilderness area in this legislation they would still be 
protected from any kind of extensive development, extensive 
construction of roads, large clear cuts, that sort of thing?
    Mr. Holtrop. That is correct, they would.
    Mr. Goodlatte. I mean this is right next to the town of 
Blacksburg, and I can understand why the community wants to see 
the area protected. I think the question is what is the best 
way to protect it.
    Mr. Holtrop. I agree with you.
    The Chairman. I thank the gentleman. I recognize the 
gentleman from Colorado for a couple questions.
    Mr. Salazar. I want to thank you, Mr. Chairman. First of 
all, let me just for the record say that I do not oppose 
wilderness areas but I want to thank Chairman Peterson and Mr. 
Goodlatte for holding this important hearing today. I represent 
the Third Congressional District of Colorado, and it is 
approximately 74 percent federal land, and I understand that we 
have to protect our federal lands, but there are currently over 
30 wilderness designations right in my district, and I think 
before we move forward with any designation, I think it is 
important for all of us that the entire congressional 
delegation be behind it, that local elected officials, local 
citizens, government agencies, and most importantly farmers and 
ranchers, I believe, must participate in every step of the 
process.
    Many times federal land and federal grazing rights are 
overlooked, and many times permitees are kicked off the land. 
There is currently blanket environmental push in Colorado to 
designate I think some 58 pieces of wilderness in our 
community. And I believe that this is the wrong way to go about 
it. It is important for all of us to go to the communities and 
to make sure it is going to be acceptable to the communities. I 
am actually eager to hear some of the testimony today, but I 
have to run off to another meeting, and I just would ask that 
we put forth an effort for more cooperation between the 
delegations and the entire state delegations. This is not an 
issue that is going to affect me directly, but I understand Mr. 
Goodlatte's feelings, and I share some of his concerns as well. 
So once again I want to thank the Chairman and Mr. Goodlatte 
for having this important hearing.
    The Chairman. I thank the gentleman, and I now recognize 
the ranking member for 5 minutes on his own time.
    Mr. Goodlatte. Thank you very much, Mr. Chairman. You have 
been very generous with the time, and let me ask you, Mr. 
Holtrop, several of the witnesses today will talk about the 
recreation value of wilderness designations, and can you tell 
me what percentage of National Forest visitors use wilderness?
    Mr. Holtrop. Across the system we have our national visitor 
use monitoring system which indicates that around 4 percent, 
4.2 percent of all National Forest System visitors are to 
wilderness.
    Mr. Goodlatte. So when you are talking about the 
recreational values and when you are talking about the economic 
values to a community drawing people into an area, is it fair 
to say that an area that has greater access to it is likely to 
draw more visitation rather than less?
    Mr. Holtrop. Well, I think that is probably going to be 
site specific in many cases. I would say the vast--the majority 
of our recreation users if you are just going to be monitoring 
use, the majority of them will probably be in more developed 
areas and more developed sites. I think to totally understand 
the relationship between the recreational opportunities that 
are presented in wilderness you also have to understand the 
percentage of the area that is currently designated wilderness. 
As Mr. Salazar was talking about as compared to what are some 
of the other opportunities that exist as well. There have been 
some studies, of course, that have indicated that the 
designation of wilderness becomes an attraction to some 
visitors but of course eliminate other people who have other 
recreational opportunities.
    Mr. Goodlatte. Well, that is undoubtedly so but hikers, for 
example, can enjoy those wilderness areas. They can also enjoy 
the other aspects of the forest that are not wilderness, and 
sometimes depending upon the access they can get a greater 
opportunity to enjoy hiking, and then other recreational 
opportunities are much more severely limited in the wilderness 
area. In several of the other wilderness bills exemptions have 
been made for certain activities such as mountain biking or 
wildlife management. There are also other options in addition 
to wilderness for setting aside land in National Forests. What 
other options would the Forest Service recommend for areas such 
as Lynn Camp Creek, Mountain Lake B, and the Shawvers Run 
areas, do you have those accessible to you?
    Mr. Holtrop. I think I can answer at least in some fashion 
that question. As we have already discussed, we have a Forest 
Plan that was 11 years in the making, and that Forest Plan 
provided prescriptions, management direction for those very 
areas that you just asked about. The Shawvers Run, for example, 
those areas were identified in the Forest Plan because there 
are Indiana Bat caves in those areas. They were identified for 
protection of Indiana Bats, those caves, and some limited 
habitat improvement work in case at some point in time there 
was a need to do some work to insure that the habitat still 
stayed productive for Indiana Bats. My sense is if the thing we 
should do if we are not to designate an area like that under 
this piece of legislation we should allow the Forest Plan 
direction to continue to apply, which was again thought through 
by land management professionals through the public process.
    Mr. Goodlatte. And what about Lynn Camp Creek?
    Mr. Holtrop. Lynn Camp Creek had similar protective 
prescription in the Forest Plan. I can't remember exactly what 
that prescription was at this time. The way we used the Forest 
Plan when looking at the proposals in this piece of legislation 
was of course if the legislation was consistent with our Forest 
Plan direction we were supportive. If it was different than our 
Forest Plan direction but we could see that we could meet our 
commitment to our public and meet our commitment to the types 
of activities we wanted to carry out on the land we did not 
oppose. In this case we did not oppose. Our concern with Lynn 
Camp Creek and Shawvers Run largely had to do with the 
configuration and the size of those as to whether they were 
suitable components of the National Wilderness Preservation 
System.
    Mr. Goodlatte. Thank you. And, finally, let me ask you what 
changes you would recommend for the National Scenic Area 
language in the bill to enable compliance with the recently 
signed Executive Order on hunting and wildlife conservation.
    Mr. Holtrop. Well, as my testimony states, we would like to 
work with the committee on that language. The type of language 
that we are thinking of currently the bill allows vegetation 
treatment in the National Scenic Areas solely for the purpose 
of retaining openings, wildlife openings or viewing openings. 
We would suggest that there might be some limited additional 
vegetation treatment for the purposes of enhancing wildlife 
habitat that is also consistent with the National Scenic Area 
designation.
    Mr. Goodlatte. Thank you. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. We are going to have 
votes here in a little bit. I think what we will do--thank you 
very much for your testimony and being with us today. I think 
we will call the next panel. Did any of the other members have 
questions? I am sorry. I guess not, so thank you very much. We 
will call the next panel. And we will get as far as we can here 
before--we have with us some folks from the area and others, 
Mr. Paul Howe, Executive Vice President of the Virginia 
Forestry Association; Mr. C. Dowd Bruton, Senior Regional 
Wildlife Biologist for the National Wild Turkey Federation; the 
Honorable John Muffo, Virginia Board of Supervisors, Montgomery 
County, Virginia; and Mr. Tom Davenport, Business Manager for 
Mt. Rogers Outfitters, Damascus, Virginia. Welcome to the 
committee. Your full statements will be made part of the 
record, and we would encourage you to summarize your testimony, 
and we will recognize each of you for 5 minutes. So, Mr. Howe, 
if you would provide.

  STATEMENT OF PAUL HOWE, EXECUTIVE VICE PRESIDENT, VIRGINIA 
            FORESTRY ASSOCIATION, RICHMAN, VIRGINIA

    Mr. Howe. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here, Mr. Chairman, Congressman Goodlatte, 
and committee members, to speak about the Virginia Ride and 
Valley Act. My name is Paul Howe. I am the Executive Vice 
President of the Virginia Forestry Association. We are a not-
for-profit organization. We have about 500 members scattered 
around the State of Virginia. Our membership is very diverse, 
and it includes private forest land owners, pulp and paper 
companies, saw mills, loggers, foresters in both the public and 
private sector, as well as individuals who are just interested 
in trees and our forests. These are the folks that own and 
manage the working forest in Virginia.
    The association's mission is to promote stewardship and 
wise use of sustainable forest resources for the environmental 
and economic benefit. That is a short and simple mission 
statement but a lot of thought went into it, stewardship, 
stability, economic, and environmental importance and benefits. 
Congressman Goodlatte covered some of the numbers as did Mr. 
Holtrop in his comments. I am not going to belabor any of the 
points in terms of numbers. Numbers are numbers. But I do want 
to make two primary points and they have to do with policy.
    First of all, the Virginia Forestry Association and many 
other groups and individual citizens provided public input and 
participated in the development of the current Jefferson 
National Forest plan, a plan that went over for 10 or 12 years. 
The plan development process for each National Forest is long, 
obviously, tedious and very thorough, and includes careful 
attention to the need for and designation of wilderness areas. 
The current Jefferson Forest plan recommends a little over 
25,000 acres of wilderness, a recommendation that VFA has found 
acceptable. However, to the extent that H.R. 1011 circumvents 
and diverts from a plan based on broad public input and 
introduces concepts not in the Wilderness Act or used currently 
such as potential wilderness, we would not support additional 
wilderness area proposals or the additional National Scenic 
Area proposals.
    I guess we look at the whole planning process as an 
activity done in good faith, and even though some of my members 
are not typically in favor of wilderness areas, we don't think 
after the planning process is the time to come in and try to 
ask Congress to make changes to something. Our point is we have 
a plan. Let us implement it. Our second concern is one based on 
the practical need for active force management that can best 
maintain the long-term health of the Jefferson National Forest. 
Our National Forests are already suffering from the lack of on 
the ground management. The hard working and dedicated Forest 
Service manager, and I worked with a lot of them in different 
states over the years, are very capable of caring for our 
National Forest lands in a manner that addresses the 
congressional mandate for multiple use, but restrictions on 
their day-to-day authority are creating forests that are 
susceptible to poor health, to insect and disease attacks, to 
fire threats, loss of certain wildlife habitat, and public 
access.
    wilderness areas can make good science-based management 
very difficult. Without prescriptive silvicultural techniques, 
the forests in wilderness areas may deteriorate, resulting in 
fire, insect, and disease problems which can spread, and I 
would like to highlight this, spread to adjoining private 
lands. Recreational opportunities can be limited in wilderness 
areas. Also, non-management does not allow for the nurturing of 
a diversity of habitats, and can actually be negative impacts 
on some wildlife populations, including both game and non-game 
species.
    The process of managing and in come cases harvesting forest 
to meet overall National Forest goals and specific forest 
plans, such as the current Jefferson plan, can provide timber 
and fiber supporting local businesses that provide goods made 
from wood that are in demand by the American public. The 
current timber harvest on the Jefferson and its sister National 
Forest, the George Washington in Virginia, are miniscule. Out 
of 1.8 million acres of land, I guess 1.6 or so is actually 
forested. There is only about 2,000 acres that are actually 
harvested annually. These forests cover a big part of Western 
Virginia.
    So I will conclude by saying that on behalf of VFA and the 
forestry community in Virginia, we appreciate your attention to 
our opinions regarding H.R. 1011 and to the natural resource 
management of our National Forests. I would be happy to answer 
to any questions at the appropriate time or if I can't answer 
them now, I can always say--if I can't answer the question, I 
have a member somewhere that can, and we can get information to 
you. Thank you.
    The Chairman. Thank you very much, Mr. Howe. I am going to 
recognize Mr. Bruton for 5 minutes, and then we will have to 
take a short break to go vote and come back. So Mr. Bruton.

     STATEMENT OF C. DOWD BRUTON, SENIOR REGIONAL WILDLIFE 
  BIOLOGIST, NATIONAL WILD TURKEY FEDERATION, TRAPHILL, NORTH 
                            CAROLINA

    Mr. Bruton. Thank you, Mr. Chairman. Good morning. My name 
is Dowd Bruton. I am a Senior Regional Wildlife Biologist with 
the National Wild Turkey Federation, an organization dedicated 
to the conservation of the wild turkey and the preservation of 
our hunting tradition. Growth and progress define the NWTF as 
it has expanded from 300 members in 1973 to more than 585,000 
members today. Together the NWTF's conservation partners and 
grass roots members have raised and spent more than $258 
million on conservation projects on more than 13.1 million 
acres of habitat. Because of our efforts and partnerships with 
state and federal wildlife organizations the re-establishment 
of the wild turkey has become one of the most exciting wildlife 
success stories of the 20th Century with turkey populations 
exceeding 7 million nationwide.
    With wild turkey populations firmly established the NWTF 
has shifted its focus to science-based active land management 
to provide habitat for turkeys and the thousands of wildlife 
species that exist in our forests across this great nation. 
Consider wise forest management to be a giant puzzle. Each 
piece has its proper place but without each individual piece 
the puzzle could never be completed. Wilderness is in fact one 
of those pieces to the puzzle. With any puzzle too many pieces 
that are exactly alike create problems in the final product. 
Our concern with H.R. 1011 is that it is overly aggressive in 
terms of adding additional wilderness in the Jefferson National 
Forest.
    Jefferson National Forest total acreage is 723,300 acres. 
Over 88 percent of the land is in wilderness. Additional 
wilderness study areas and National Scenic Areas represent 
another 7 percent. If the Virginia Ridge and Valley Act of 2007 
is enacted the wilderness along with existing acreage would 
total approximately 19 percent of the total forest area. I 
would just like to list a few reasons why the NWTF believes too 
much wilderness as prescribed in H.R. 1011 is a problem. First 
of all, any type of active forest management is restricted on 
wilderness areas. Additionally, wilderness is created by an act 
of Congress and cannot be changed without federal legislation. 
There can be no timber harvest, even thinning, which is a great 
tool for creating early successional habitat that many species 
require for foraging, breeding, nesting, and survival.
    Combating non-native evasive forest insect and disease 
problems will be difficult to implement under the wilderness 
designation. A few striking examples are the beech bark scale 
disease and the hemlock wooly adelgid, which are killing nearly 
all of the American beech and eastern hemlock trees that they 
infect. Wilderness standards dictate that wildfires be 
suppressed and that prescribed fire can occur only with an 
approved burn plan. Perversely though, prescribed fire is 
actually not a realistic management option because there can be 
no use of equipment to create fire lines and no mechanical 
options for fire control, only the use of hand tools are 
allowed for control.
    Many people believe that wilderness protects the forest and 
its wildlife species from man. Science simply does not 
corroborate that belief. Active forest management, including 
prescribed fire, reduces the build up of fuel levels within the 
forest, protects against catastrophic wildfires and protects 
biodiversity. It is scientifically documented that there is an 
oak decline occurring in the eastern Oak Forest. There are many 
suspected reasons for this decline. Old growth forests, 
wilderness, are at the highest risk. Active management, using a 
variety of techniques, including prescribed fire and forest 
thinning, are the only wide-scale solutions to allow sunlight 
to reach the forest floor and promote the oak seedlings from 
acorns.
    Wildlife has been managed by God and man since creation. 
Lightning strikes, wildfire, and wind storms have existed for 
all time. They create openings in the forest for wildlife. In 
the days before European settlers came to America, native 
Americans cleared land using fire for their livestock and crops 
to support their families. When the settlers arrived, many 
accounts from those settlers indicate the overwhelming species 
diversity and actual numbers of species. Those early settlers 
simply expanded what Native Americans had been doing for 
thousands of years. As a result, they fed their families and 
understood the value of forest management and biodiversity.
    Only recently have certain factions begun to think that no 
management is best. I urge you to consider what is proven to 
happen when a forest becomes wilderness. The forest matures 
into an old growth forest. The trees are tall and the canopy of 
the forest closes in. This in turn restricts the sunlight that 
reaches the forest floor. Many of the grasses, forbs, and 
shrubs that are dependent on that sunlight can no longer exist. 
Plant species diversity and wildlife species that depend on 
these plants suffer. The NWTF believes that wilderness 
certainly has its place in the forest plan and in forest 
management.
    We cannot support, however, the overreach of H.R. 1011 and 
would urge a more limited approach that does not imperil 
biodiversity and forest health. We urge the committee to 
propose some adjustments to H.R. 1011 that move the wilderness 
designation closed to being consistent with those in the forest 
plan. Please know that NWTF stands ready to work with you to 
craft these adjustments, and to continue to invest our funding 
and sweat equity into National Forest conservation efforts. Mr. 
Chairman, thanks for allowing me to share my comments.
    The Chairman. Thank you very much, and as a turkey hunter I 
want to thank the NWTF for all they do. You guys do a great 
job. We are going to take a break, go vote, and as soon as 
these votes are over we will be back and continue with the last 
two members of the panel. We appreciate your patience putting 
up with us.
    [Recess]
    The Chairman. I apologize. I didn't realize it was going to 
take that long, but that is the way things go around here. We 
left off with Mr. Muffo, so we will recognize you next for 5 
minutes. We appreciate you being with the committee.

  STATEMENT OF JOHN A. MUFFO, VIRGINIA BOARD OF SUPERVISORS, 
       MONTGOMERY COUNTY, VIRGINIA, BLACKSBURG, VIRGINIA

    Mr. Muffo. Chairman Peterson, Ranking Member Goodlatte and 
members of the committee, I am John Muffo, a member of the 
Montgomery County Board of Supervisors, and I would like to 
thank you for providing me with the opportunity to testify 
today in support of H.R. 1011, the Virginia Ridge and Valley 
Act. And with the sense of time and the fact that I had to 
listen to a lot of presentations the way you do, and I have to 
face the voters and I am probably the only speaker that has to 
face the voters in November, I would like to abbreviate my 
comments a little bit, if you don't mind.
    During the Forest Service planning process in 2003, the 
Montgomery County Board of Supervisors adopted a resolution 
supporting wilderness designation for portions of Brush 
Mountain in Montgomery County. This resolution was adopted 
after a series of public meetings by the board and with 
significant public input. While the Forest Service did not 
include our recommendation in the final plan, I am pleased that 
Senator Warner and Congressman Boucher did listen to the 
citizens and the Board of Supervisors and did include the Brush 
Mountain Wilderness Area in the Virginia Ridge and Valley Act. 
The board considered a number of factors when we voted to 
support a Brush Mountain wilderness area.
    First and most importantly, we believed that the 
designation of the Brush Mountain Wilderness Area would enhance 
the quality of life for our constituents. The designation of 
portions of Brush Mountain as wilderness area ensures that this 
section will be enjoyed by current and future generations in 
its natural state. The protection of view sheds is a high 
priority for the Montgomery County Planning Commission and the 
Board of Supervisors. Brush Mountain is a natural scenic 
backdrop for Blacksburg and nearby communities and should be 
preserved to the extent possible.
    The Montgomery County Comprehensive Plan recognizes and 
promotes the fundamental notion that the county's natural 
resources are vital to the county's quality of life and provide 
substantial economic and recreational opportunities for the 
citizens of Montgomery County. Eco-tourism already benefits the 
county and has the potential to grow. It is a key element of 
the county's economic development plan for the county, and this 
Brush Mountain wilderness area along with other activities, 
outdoor activities, would certainly enhance the county as an 
attractive destination for outdoor enthusiasts.
    Looking at those factors, it is clear that the designation 
of the Brush Mountain Wilderness Area is a good investment for 
our community. Mr. Chairman, we in Montgomery County appreciate 
our National Forest lands and support reasonable stewardship of 
these lands. And we do appreciate, by the way, the stewardship 
of the forestry people, and we like to work in cooperation with 
those folks. Certainly timber harvesting is an integral part of 
the forest plan, and so too should be other activities and 
considerations such as recreation and view shed preservation. 
As a member of the Board of Supervisors, I have learned that as 
our county grows at a rate of approximately 1,000 people per 
year, so do the demands for more recreational opportunities.
    The Jefferson National Forest offers a wide variety of 
outdoor activities that my constituents enjoy every day. That 
is why the designation of the Brush Mountain Wilderness Area is 
so important. Favorable congressional action would set aside a 
small portion of the forest for all to enjoy. I urge the 
committee to pass the Virginia Ridge and Valley Act. I also 
have a statement from a constituent, Dr. David West, who is a 
biologist, that I would like to include in the record. Thank 
you, and I would be happy to answer any questions.
    The Chairman. Thank you very much. We will include that 
statement in the record. Thank you for summarizing that. Mr. 
Davenport.

  STATEMENT OF TOM R. DAVENPORT, BUSINESS MANAGER, MT. ROGERS 
                 OUTFITTERS, DAMASCUS, VIRGINIA

    Mr. Davenport. Chairman Peterson, Ranking Member Goodlatte, 
thank you for the opportunity to be here to present my views on 
H.R. 1011. My name is Tom Davenport. I am the business manager 
for Mt. Rogers Outfitters, an outdoor retail establishment in 
Damascus, Virginia. I am a resident of Damascus, and have been 
a resident there in the 9th district for the past 16 years. 
Many people talk about the value of wilderness, and some 
emphasize the esthetics, some emphasize ecosystem management. 
Today I would like to address my support for H.R. 1011 to 
largely a pragmatic reason, and a reason that is rooted deeply 
in my economic self interest.
    Our customers are people who come to us to have a 
wilderness experience. The vast majority of our customers are 
not local. Rather, they come from places like Ohio, from 
Michigan, from Indiana, from North Carolina, Florida, 
Mississippi, and they come to experience wilderness. The better 
the wilderness experience, the more customers we have because 
what happens is, and we see it time and time again, they go 
back, they tell about their experience, they tell about the 
Lewis Fork Wilderness Area, and their friends come back. 
Without these customers, I think it is fair to say Mt. Rogers 
Outfitters would not be in business. Mt. Rogers Outfitters was 
the first tourism-based business to open in our small town. 
That was in 1991. And our opening was in direct response to the 
congressional designation of the Lewis Fork and the Little 
Wilson Creek wilderness areas.
    We were the first business within a 50-mile radius of those 
wilderness areas to begin a client base, to build a client base 
around those two resources. Our business plan and our marketing 
campaign focused on those two wilderness areas. That campaign 
reached a milestone this past year, and we are kind of proud of 
that. The Backpacker magazine, which is the premier national 
journal of publication on backpacking in the backpacking and 
hiking industry, did an article on the best of the best places 
for enjoying outdoor recreation. They listed the Lewis Fork 
Wilderness Area and the Little Wilson Creek Wilderness Area as 
the best weekend hike in the Appalachian region. By the way, 
they also recognized our store as the top hiking store on the 
Appalachian Trail.
    Since our beginning, and actually just within the past few 
years competition has been introduced. There is a second 
backpacking store in our town and that is okay. There are other 
uses, other competitive businesses, being developed in our 
town. Our town today has 6 to 7 bicycle shops, has 12 to 15 
B&Bs. New restaurants have opened. We have developed a pretty 
respectable little tourism economy. Not all of it based on 
wilderness, but the point I would like to make for you today to 
consider is that for Damascus it all began with setting aside a 
resource. It takes two components to create a tourism-based 
economy. It takes a significant attraction and then it takes a 
certain amount of entrepreneurial skills.
    I think it was significant that in our case that wilderness 
designations provided the impetus. Wilderness is what first 
brought people into the community from places far and wide. It 
was seeing those perspective customers that prompted other 
entrepreneurs into action. We think it is in our economic 
interest to secure the present and future integrities of these 
outstanding resources. Indeed, we think it is in the economic 
self interest of much of the rural portion of the 9th 
Congressional District. We were pleased, therefore, to see the 
Smith County and Bland County boards of supervisors endorse 
permanent protection for these special areas. We ask you to 
advance this legislation.
    Gentlemen, the Jefferson National Forest is big enough for 
this legislation, and for all the other uses and all the other 
management activities that you have heard about today. I thank 
you for your time, and I will be glad to answer any questions.
    The Chairman. Thank you very much. I am pleased to 
recognize Mr. Goodlatte at this time.
    Mr. Goodlatte. Thank you, Mr. Chairman. I want to thank all 
of the witnesses. They have helped us move forward in terms of 
determining the areas of this legislation that have merit, and 
those that do not. Let me just start, Mr. Davenport, I 
certainly concur in your assessment that the type of business 
that you have is enhanced by making sure that the wilderness 
areas that are made available are the best quality. I know that 
the ones that are recommended by the Forest Service that we 
have no objection to do enhance the Lewis Fork Wilderness Area 
and the Little Wilson Creek Wilderness Area. I would hope that 
we could agree that there are different parts of the forest 
that serve different purposes.
    Mr. Davenport. Mr. Goodlatte, we can agree.
    Mr. Goodlatte. Sure. And that is what I would like to focus 
on. No question that there are different types of businesses 
that are benefited by having National Forest land in their 
districts, in their counties and their communities, and I have 
long believed that that is an asset that we do not get enough 
benefit from in Virginia. I have been down to Mt. Rogers and 
hiked extensively through that area. Unfortunately, I didn't 
use your business but maybe the next time I will. I have also 
hiked in Montgomery County. I enjoy it very much. My concern is 
making sure that we address a multitude of different concerns 
and uses, and that each area we select are appropriate for that 
purpose.
    And I would say the same thing to you, Mr. Muffo. I very 
much think that this area, Brush Mountain, should be protected 
but my concern is that the use of wilderness designation for 
that particular area as opposed to, for example, the Scenic 
Areas that Mr. Boucher has used extensively, and I might add 
that that came about from a discussion, in fact, several 
discussions that we have had over the years that stemmed from 
the creation in my district of the Mt. Pleasant National Scenic 
Area when I was first elected. The Amherst County board of 
supervisors asked us for a wilderness designation at Mt. 
Pleasant in part to protect their watershed and they had other 
concerns as well.
    So I went and hiked that area again extensively and found a 
number of reasons why wilderness would affect that area. There 
was a bald on top of one of the mountains in the wilderness 
area that was maintained using mechanical--and it is one of the 
most spectacular areas on the entire Blue Ridge Mountain chain, 
that the Appalachian Trail wanted to be able to use power tools 
to maintain the trail as it runs through that areas, but what 
really struck me the most was I ran into a father and son who 
were out fishing, and I stopped our little group, and I went 
over to ask the father of what he thought of converting that 
area into a wilderness area. And he said, well, you know, it is 
a beautiful area, and I think it should be protected, but I 
sure hope you don't make it wilderness area.
    And I said why is that, and he said, well, I am getting up 
in years, and I am not going to be able to get in here to enjoy 
this beautiful stream unless I can use these couple of existing 
dirt roads to get in here. And then he pointed to his son, who 
looked like he was about 30 years old, and he said he certainly 
wouldn't be able to come up here. And I said, well--he looked 
like a fine, strapping young man, and I said why is that, and 
he said, well, he has an artificial leg. So, you know, from the 
standpoint of access to our National Forests it is important to 
make sure that we measure these things. I happen to believe 
that you will get greater benefit from Brush Mountain if you 
were to consider going the Scenic Area route as opposed to the 
Wilderness Area because you can have the flexibility that 
allows the Forest Service to protect and enhance the growth of 
the Table Mountain Pine.
    You deal with the issue of whether you should have a 
Wilderness Area that is really created into two wilderness 
areas because you bifurcated it with a power line. I don't know 
whether there would be any way to take the area that has the 
greater amount of Table Mountain Pine and make that one a 
Scenic Area rather than a Wilderness Area. That is what I 
concluded when I did the Mt. Pleasant National Scenic Area. We 
did that in order to highlight it, have a very clear 
designation for the tourism value, the eco-tourism that Mr. 
Davenport mentioned, but it also allowed us to maintain the 
existing roads and restrict and prohibit any new roads to 
restrict use of forestry activities to allow for the clearing 
of that bald and some of the other things. It was a very good 
designation.
    And it seems to me that with regard to Brush Mountain there 
are some similarities there in terms of being as close to the 
town of Blacksburg as it is, in terms of the need to be able to 
use equipment for certain purposes to promote that species of 
trees, to fight forest fires and other disease infestation, 
which you can do in a wilderness area but you can do it more 
effectively and more rapidly when you don't have those areas, 
and if you can do that and prescribe things that are very 
specifically spelled out in the language to protect it, it 
would seem to me that there is some greater flexibility if you 
allow that. And I just ask you with regard to Brush Mountain 
where the board is in terms of that kind of flexibility that 
could be given to highlight it and create the kind of 
protection you want, which I certain concur with but also give 
the Forest Service the kind of flexibility that would allow 
them to manage the things that have caused them to express 
concern and caused them to exclude it from the plan as a 
Wilderness Area.
    Mr. Muffo. Well, first of all, there is no loss of a road 
in the Wilderness Area designation. There is only one road 
there, and it is not affected by the Wilderness Area 
designation.
    Mr. Goodlatte. Sure, I understand that. I am talking about 
other features that the----
    Mr. Muffo. Well, I am not sure exactly what feature would 
be lost. You can't cut it because it is too steep. The only 
thing that we can figure out that would be lost is the Forest 
Service would not be able to burn it. And, frankly, we are not 
very enthusiastic about the Forest Service burning it to begin 
with. And so it is not something that most of the citizens that 
I have talked to are very enthusiastic about the Forest Service 
doing to begin with. And that is about the only difference that 
we can see.
    Mr. Goodlatte. So you are not concerned about the Table 
Mountain Pine issue then?
    Mr. Muffo. I am not a forester, and the only thing I know 
about Table Mountain Pine is in the letter from my biologist 
constituent, and he said it is not--he said there was a whole 
lot of Table Mountain Pine around. And I will give you this as 
part of the record.
    Mr. Goodlatte. I yield back to the Chairman.
    The Chairman. So you don't want the Forest Service to burn 
this so what if it catches on fire and the whole thing is going 
to burn up, then what happens?
    Mr. Muffo. Okay. Well, first of all, let me give you a 
quick picture. There is a road on top of the mountain. The back 
side, the side we are talking about, that faces--the west side 
faces towards West Virginia. The east side is the part that 
faces Blacksburg and there is a half mile buffer that the 
Forest Service is still maintaining that is not affected by 
this particular bill. So we have got a half mile buffer with 
the residential areas that is unaffected. And there is a road 
on top so it is basically the back side that we are asking to 
be put in----
    The Chairman. Well, this is not my district in Minnesota, 
and I may be wrong about this but we have the BWCA wilderness, 
and, you know, they have had a controversy about that. We had a 
big blow down and a storm came through and blew down almost all 
the trees, and they were again spurning the environmental 
groups and so forth until that happened. There are things that 
go on that I don't think any of us can foresee, and I agree 
with Bob, I thing we get ourselves locked in on ideology and 
nature may change things that people don't know about.
    So all of a sudden we have people asking us to do things 
that a few years ago they were against, you know, and I told 
them I thought we should just leave it the way it was. That is 
what they wanted, but they couldn't get in there. So anyway----
    Mr. Muffo. It is also my understanding that under the 
proper circumstances it can still be managed if it has to be. 
If it is a clear danger the Forest Service can burn if it has 
to.
    The Chairman. Because you are making it a Wilderness Area.
    Mr. Muffo. Even if it is a Wilderness Area they have the 
ability to do it if they have to. It is just a much higher 
standard.
    Mr. Davenport. They fought a fire in St. Mary's wilderness.
    The Chairman. They what?
    Mr. Davenport. They fought a fire in the St. Mary's 
wilderness. They used helicopters to go in. They used chainsaws 
to cut trees so the Forest Service does have the ability to 
fight fires in the wilderness.
    The Chairman. I thought the whole purpose of the Wilderness 
Area was to not do that so what are we doing here? I mean it is 
like we are putting something off limits so a few elite people 
can have whatever they want, and then when things don't go 
their way then they want to do it different. It just seems kind 
of----
    Mr. Davenport. I am just relating the events that happened, 
sir.
    The Chairman. What is that?
    Mr. Davenport. I am just relating the events as they 
happened.
    The Chairman. Go ahead, Bob.
    Mr. Goodlatte. Well, I am very familiar with the St. Mary's 
Wilderness Area. It is in my congressional district, and the 
fact of the matter is there have been enormous problems with 
dealing with a syndication of the river, and they can't bring 
in the limestone. This was done by my predecessor, Jim Owen, 
and when I was asked about the Mt. Pleasant area, I went to him 
first and he said I would urge you to be cautious about 
wilderness areas, and he cited the same areas and the problems 
therein as a matter to be concerned about. However, 
notwithstanding that the gentleman is correct. Mr. Davenport, 
under correct circumstances the Forest Service can fight forest 
fires in wilderness areas, and they should, but the problem is 
they can't do the kind of things that are necessary ahead of 
time to prevent those forest fires from being likely to occur 
if they can't use all of the appropriate management tools.
    And so what is going to happen is if you say it is a 
Wilderness Area it is going to be treated by the Forest Service 
like a Wilderness Area, and it is a lot less likely that they 
will try to do the kind of things that are necessary to keep a 
forest fire from getting out of control. And given that it is 
close to residential and urban areas it is of concern to me, 
and it is also a concern to them. It is not in my congressional 
district so it is not the primary foundation for my thinking 
that this should be altered. My primary thinking relates to the 
testimony of the Forest Service that they could better manage 
this area if they are given the flexibility to do that.
    And, quite frankly, I think in terms of tourism values if 
you designate an area as a Scenic Area it will do at least as 
well. There are very few Scenic Areas in the country. There are 
lots of wilderness areas. But the access to it, the ability of 
people to utilize it effectively, I think has dramatically 
changed, and I would hope that there would be more flexibility 
on the part of the board of supervisors in being willing to 
discuss this with the Forest Service, with this committee in 
terms of what is the most appropriate way to find that kind of 
protection. But having heard your testimony, I understand you 
are not there.
    Mr. Muffo. They haven't convinced any of us. I mean you 
have heard that four different boards of supervisors have not 
been convinced. Craig County has voted in favor of a 
designation. Montgomery County and two other counties that were 
mentioned, they have not convinced the people because it is the 
people who told us at our public hearings what they wanted. I 
have got to stand for election in November. My colleague who 
represents the district that borders this has to stand for 
election in November. We are both running unopposed. It is the 
people who are telling us they want this as wilderness. I 
wouldn't be in favor of it if they people weren't. And so they 
haven't convinced the people. I don't care what the Forest 
Service is telling you, they haven't convinced the people, and 
that is why I am here.
    Mr. Goodlatte. Well, let me just say that I appreciate 
that, and I think that is all well and good, but the fact of 
the matter is that individual people are represented by members 
of boards of supervisors who are charged with learning more 
about a particular subject than the individuals that they 
represent always necessarily know. So we are talking here about 
two designations that have names attached to them, and those 
names are of interest to people, but when you get to the 
underlying issue of what is going to be the legacy of that and 
the problems that may be incurred it is worth finding out. That 
is certainly what I found out. The people of Amherst County and 
their board of supervisors unanimously said that they wanted a 
Wilderness Area. By the time we were done, I had testimony here 
in the Congress with environmental groups and forestry groups 
and the local government representative all testifying in favor 
of the Scenic Area because after considering all of the 
evidence carefully that is what they determined was the 
appropriate alternative to take notwithstanding the fact that 
there was a 5-0 vote by the board of supervisors initially 
saying that they wanted wilderness, and it has been a great 
success ever since, and we have not had problems with that 
area.
    We have had problems with the James River Face Wilderness 
Area or the St. Mary's Wilderness Area, and we have not had 
problems with other Wilderness Area designation in my 
congressional district, and I am sure in Mr. Boucher's district 
too. Every piece of land is different and is deserving of 
different treatment, and that is why I think it is well worth 
listening to what the National Forest representatives say when 
they express those kind of concerns about it. But be that as it 
may, let me ask Mr. Bruton about another issue, and that is 
hunting and fishing contribute millions to Virginia's economy 
and are integral to the culture and the way of life for many 
Virginia natives. Are hunting opportunities in Virginia 
increasing or decreasing?
    Mr. Bruton. I think I would have to say with urban sprawl 
in eastern and northeastern Virginia certainly opportunities on 
that end of the state are decreasing. Our National Forest, 
Jefferson and George Washington, are some of the few 
strongholds remaining for hunters and fishermen. Those lands 
need to be protected, but they also need to be actively managed 
for the sportsmen that use those areas. Sportsmen are attracted 
to areas that have quality opportunities and obviously 
wilderness would--this land would still be in public ownership 
and available to hunters and fishermen and backpackers and 
hikers, but hunters and fishermen like that quality experience, 
and having more active management on those lands it provides 
more opportunities for those hunters to enjoy their trips to 
the field.
    Mr. Goodlatte. When you have small wilderness areas, what 
kind of impact does the surrounding areas have on the ability 
to protect wildlife in those areas when you can't do some of 
the things you could do if you had a different designation 
regarding, for example, prescribed burns and other things that 
would allow for habitat management that are more difficult to 
do when you have the wilderness designation?
    Mr. Bruton. I think small wilderness areas creates all kind 
of problems. First of all, you have the potential of a lot of 
illegal access and use from the private lands adjoining those 
small areas. It also creates potential for conflicts between 
hunters that access from the public access on lands and walking 
in versus maybe a hunter accessing from the private lands on 
the adjoining properties. Basically it not really an unfair 
advantage but it is certainly an advantage that those private 
landowners and people that access from the private property 
have.
    Mr. Goodlatte. Thank you. Mr. Howe, were you or your 
members involved in the Jefferson Forest plan development?
    Mr. Howe. Yes, sir. Of course it was a long process and we 
at the association monitored it the whole way through, and as I 
recall there were three main alternatives so we had spent many 
days sifting through that material. More importantly, I guess 
our members, we probably had 15 or 20 key forestry members that 
had--a lot of people were interested but didn't necessarily 
have the time but some folks took time out of their busy 
schedules to go to public hearings and the meetings. I actually 
went back through my file before I came up here, and one 
interesting quote from a gentleman who happens to the president 
of our association right now said you had to become a 
professional meeting goer to get your points across. And my 
point there would be folks taking a lot of time out of their 
busy schedule in good faith to go and get their points across, 
and then after the fact I think there is a plan that has been 
developed and is going to be implemented, and we have to keep 
coming back and revisit in this case additional wilderness 
areas.
    And there were others that were involved. I found at least 
one local planning commission that spent a lot of time on it, 
and they did come out in opposition to wilderness areas during 
that time. They made a comment that they believed that timber 
resources on federal lands within the Jefferson are not being 
aggressively managed as they could be and should be, 
particularly hardwood, and they do not support any measure that 
would move the Clinch River district, which is one district 
there in the Jefferson Forest, toward a wilderness designation 
or any designation that would potentially place extreme 
restrictions on the multiple use approach to forest management. 
And that was a planning commission that represented Wise 
County, Scott County, and Lee County, and the town of Norton. 
So just not in the forestry community but some others in the 
local planning community and local government.
    Mr. Goodlatte. You mentioned fire and forest health 
problems that may result from the wilderness designations in 
the bill, and I wonder if you might elaborate on that. What is 
the current fire risk in southwest Virginia where these areas 
are located?
    Mr. Howe. It is pretty bad this year with all the talk 
about climate change. Whatever is causing it, we have had a dry 
year, and the Department of Forestry sent out some notices 
earlier in the year, sent out a map, and designated certain 
areas that were really threatened by wildfire. In fact, I think 
they are already well ahead of the--maybe even have double the 
number of wildfires and the acreage impacted that they have in 
a typical year. One of the areas, I am looking at the map, it 
basically corresponds to Congressman Boucher's district that 
has high incidents of threat, and I don't think that has 
changed. I received another e-mail from the Department of 
Forestry just earlier this month. Again it says we are easily 
going to start pushing double what our normal average is. I 
guess our concern is that this impacts National Forests but 
these National Forests are inundated with private land holdings 
and surrounded by private land holdings.
    And whether we like it or not there are homes in many of 
these areas, and the fire doesn't know where the boundary is 
nor do insects, for that matter. When a fire starts, and if it 
is not contained in a timely manner it is going to burn up some 
private lands and perhaps private homes. The state forester 
called me last week and then we talked again yesterday, and I 
received a call also from my counterpart in Tennessee with the 
Tennessee Forestry Association who had talked to the state 
forester there, and they are so concerned they have asked us in 
the private sector to help them with a public relations 
campaign to try and get the word out about the current dangers 
with fire. And our state forester said he is very concerned 
about what they term the Wildlife Urban Interface and that the 
restrictions--it is not just the restrictions during the fire.
    I think, Congressman Goodlatte, you mentioned that. It is 
managing in a way that would keep some of those fires from 
starting or becoming true wildfires. So the state foresters in 
the states and around the Jefferson National Forest are 
concerned. I will give an example. I had an opportunity to go 
out to a meeting in Tahoe this past year, and you will recall 
they had a major wildfire in that area. And the National Forest 
representative gave us a tour and pointed out that the public 
in that area had originally not wanted any timber management 
but had decided perhaps it was a good thing so that eventually 
with some of the timber thinning and the active management they 
were able to quell that fire from taking over and burning up 
south like Tahoe. Different situations geographically but still 
the dangers, similar dangers, are there in southwest Virginia.
    Mr. Goodlatte. Thank you, Mr. Howe. Mr. Chairman, I think 
that completes the questions that I had. I want to thank all 
the witnesses again, and I would just say to our member of the 
board of supervisors I hope we can continue to talk about these 
even if we don't necessarily agree on the appropriateness. And 
I think the objective here is to find the best way to protect 
this land, not to not protect it. And wilderness areas have 
their place but they also have their problems, and I just want 
to make sure that everybody is aware of that, and I hope that 
as we continue to discuss this with Congressman Boucher and 
with others, I expect this legislation will move forward fairly 
soon. What the Chairman has said is exactly right. Once this is 
done, once it is put into wilderness, that is it. You are not 
going to have any opportunity to allow for some greater 
management and flexibility on the part of the Forest Service, 
and I think that is the concern that they have expressed, and I 
think it is a legitimate concern but I stand prepared, and I 
know Mr. Boucher knows to continue to talk about ways to make 
sure that the greatest amount of flexibility and the greatest 
amount of protection are brought together in a way that would 
serve the people of Montgomery County in this regard. So, in 
any event, I thank all of you for your testimony. And, Mr. 
Chairman, again I thank you very much for holding this hearing.
    The Chairman. I thank the gentleman, and I think the 
gentleman has raised some valid concerns, and I too want to 
thank the witnesses and thank you for your patience in putting 
up with us being gone for a while. And with no further business 
before the committee, the committee stands adjourned.
    [Whereupon, at 1:30 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
